HHS/OIG, Audit - "Audit of Medicaid Payments for Skilled Professional
Medical Personnel Reimbursed at Enhanced Rates - West Virginia," (A-03-04-00204)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Skilled Professional Medical Personnel
Reimbursed at Enhanced Rates - West Virginia,"
(A-03-04-00204)
December 7, 2004
Complete
Text of Report is available in PDF format (379 kb). Copies can also be obtained
by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The West
Virginia Bureau for Medical Services (State agency) claimed and was reimbursed
the Federal enhanced rate for 38 individuals improperly classified as skilled
professional medical personnel.  Those individuals did not meet the definition
of skilled professional medical personnel as defined in the Social Security
Act and implementing Medicaid regulation.  As a result, the
State agency received Medicaid overpayments for fiscal year 2003 totaling $296,485 for
individuals and $2,875 for non-compensation expenditures that did not meet the
criteria of skilled professional medical personnel.  We recommended that the State
agency refund $299,360, and implement procedures to properly classify skilled
professional medical personnel.  The Centers for Medicare and Medicaid Services and State
agency generally agreed with our findings and recommendations.  However, the
State agency reclassified 11 individuals who were claimed and reimbursed at the
Federal enhanced rate for skilled professional medical personnel as Medicaid
Management Information System operations personnel in order to retain the
Federal enhanced rate.